  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




DURABLE MEDICAL EQUIPMENT CLAIMS
    PAID BY NATIONAL HERITAGE
 INSURANCE COMPANY, INC., DID NOT
 ALWAYS MEET THE REQUIREMENTS OF
THE LOCAL COVERAGE DETERMINATION
    FOR LOWER LIMB PROSTHESES


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                         August 2013
                                                        A-07-13-05040
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 National Heritage Insurance Company, Inc., paid approximately $450,000 for lower
 limb prosthetics claims that did not meet Medicare coverage requirements for the period
 January 1, 2009, through September 30, 2012.

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews found that Durable Medical Equipment
(DME) Medicare Administrative Contractors (MACs) did not ensure that lower limb prosthetic
claims met the coverage requirements in local coverage determinations (LCDs). LCDs are
decisions by DME MACs on whether to cover a particular service in accordance with
section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to provide guidance
to the public and the medical community. In response to one of OIG’s reviews, on March 5,
2012, the Centers for Medicare & Medicaid Services (CMS) issued a Technical Direction Letter
(TDL) directing the DME MACs to develop claim-processing edits for all requirements in
LCDs for lower limb prostheses. National Heritage Insurance Company, Inc. (NHIC), is one
of the DME MACs. This review is part of a series of reviews to determine the compliance of
DME MACs with LCD requirements for lower limb prostheses.

The objective of this review was to determine whether NHIC processed and paid claims for
lower limb prostheses according to LCD requirements for the period January 1, 2009, through
September 30, 2012.

BACKGROUND

Section 1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item must
be reasonable and necessary for the diagnosis or treatment of illness or injury or improve the
functioning of a malformed body member. Medicare Part B provides for the coverage of durable
medical equipment, prosthetics, orthotics, and supplies (DMEPOS).

A lower limb prosthesis is an artificial replacement for any or all parts of a leg; it provides an
individual who has an amputated limb with the ability to perform functional tasks, particularly
walking, that may not be possible without the device. For a lower limb prosthesis to be covered
by Medicare, the patient is expected to reach or maintain a defined functional level and be
motivated to ambulate.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. Each claim can have multiple lines of service, each of which represents
a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the supplier.
Lines of service are billed using HCPCS codes, many of which require a modifier code to
indicate such things as left or right limb and functional level. NHIC published LCD L11464 for
lower limb prostheses. The LCD contained coverage requirements, such as the functional levels
required for certain components, socket inserts that are allowed only in certain quantities,
unallowable combinations of HCPCS codes, and the DMEPOS suppliers’ documentation
requirements. Medicare policy instructs DME MACs to apply the LCD coverage requirements


National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   i
to claims on either a prepayment or postpayment basis. NHIC uses claim-processing edits to
apply LCD requirements for lower limb prostheses on a prepayment basis. Prepayment edits are
programming logic within a claim-processing system that are designed to evaluate claims and
prevent payment for errors such as noncovered, incorrectly coded, or inappropriately billed lines
of service.

WHAT WE FOUND

NHIC paid $450,157 for 651 lines of service for lower limb prostheses from January 1, 2009,
through September 30, 2012, that did not meet LCD requirements, consisting of:

    •   $374,492 for 593 lines of service that had unallowable combinations of components,

    •   $63,583 for 43 lines of service that had missing or incorrect functional level modifiers,

    •   $9,026 for 7 lines of service with unallowable HCPCS codes, and

    •   $3,056 for 8 lines of service with unallowable quantities of test socket inserts.

At the time that NHIC paid these lines of service, it did not have edits in place to evaluate
whether they met all the LCD requirements. In response to CMS’s March 2012 TDL, NHIC
implemented and improved edits to address the LCD requirements. Of the 651 lines of service
we identified that did not meet LCD requirements, 66 lines of service occurred after the
implementation of the new and revised edits. NHIC did not reprocess previous claims to ensure
that they were in accordance with the LCD.

WHAT WE RECOMMEND

We recommend that NHIC:

    •   recover $450,157 in identified overpayments for lines of service for lower limb
        prostheses that did not meet LCD requirements and

    •   monitor the edits it developed and updated in response to CMS’s March 2012 TDL to
        ensure that the edits are functioning correctly.

AUDITEE COMMENTS

In written comments on our draft report, NHIC concurred with both of our recommendations and
described corrective actions that it had taken or planned to take.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare Coverage of Lower Limb Prostheses ................................................. 1
                 Durable Medical Equipment Medicare Administrative Contractors ................. 2
                 Local Coverage Determinations and Claim-Processing Edits ........................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Unallowable Combinations of Components .................................................................. 4

           Missing or Incorrect Functional Level Modifiers .......................................................... 4

           Unallowable Healthcare Common Procedure Coding System Codes ........................... 4

           Unallowable Quantities of Test Socket Inserts .............................................................. 4

RECOMMENDATIONS ........................................................................................................... 5

AUDITEE COMMENTS........................................................................................................... 5

APPENDIXES

           A: Related Office of Inspector General Reports ........................................................... 6

           B: Audit Scope and Methodology................................................................................. 7

           C: Auditee Comments ................................................................................................... 8




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)                                                iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews (see Appendix A) found that Durable
Medical Equipment (DME) Medicare Administrative Contractors (MACs) did not ensure that
lower limb prosthetic claims met the coverage requirements in local coverage determinations
(LCDs). LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to
provide guidance to the public and the medical community. In response to one of OIG’s
reviews, on March 5, 2012, the Centers for Medicare & Medicaid Services (CMS) issued a
Technical Direction Letter (TDL) directing the DME MACs to develop claim-processing edits
for all requirements in LCDs for lower limb prostheses. National Heritage Insurance
Company, Inc. (NHIC), is one of the DME MACs. This review is part of a series of reviews to
determine the compliance of DME MACs with LCD requirements for lower limb prostheses.

OBJECTIVE

Our objective was to determine whether NHIC processed and paid claims for lower limb
prostheses according to LCD requirements for the period January 1, 2009, through
September 30, 2012.

BACKGROUND

Medicare Coverage of Lower Limb Prostheses

Under Title XVIII of the Act, the Medicare program provides health insurance for people aged
65 and over, people with disabilities, and people with permanent kidney disease. CMS
administers the Medicare program. Section 1862(a)(1)(A) of the Act requires that, to be paid by
Medicare, a service or an item must be reasonable and necessary for the diagnosis or treatment of
illness or injury or improve the functioning of a malformed body member.

According to the Act, Medicare Part B provides for the coverage of durable medical equipment,
prosthetics, orthotics, and supplies (DMEPOS). A lower limb prosthesis is an artificial
replacement for any or all parts of a leg; it provides an individual who has an amputated limb
with the ability to perform functional tasks, particularly walking, that may not be possible
without the device. A prosthesis joins the beneficiary’s residual limb at one of several sites, such
as the hip, knee, ankle, or foot.

For a lower limb prosthesis to be covered by Medicare, the patient is expected to reach or
maintain a defined functional level and be motivated to ambulate. Functional levels range from
level 0 to level 4 and are indicated on prosthetic claims by modifiers K0 to K4. A K0 functional
level modifier identifies a beneficiary who does not have the ability or potential to ambulate or
transfer safely with or without assistance, and a prosthesis does not enhance his or her quality of
life or mobility. In contrast, a K4 functional level modifier is for a beneficiary who has the




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   1
ability or potential for prosthetic ambulation that exceeds basic ambulation skills; this level is
typical of the prosthetic demands of the child, active adult, or athlete.

Durable Medical Equipment Medicare Administrative Contractors

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 required, among
other things, the use of MACs to process Medicare claims. CMS contracted with four DME
MACs to process and pay DMEPOS claims. Each DME MAC processes claims for one of four
jurisdictions, known as Jurisdictions A, B, C, and D. NHIC is the DME MAC for Jurisdiction A;
it processes DMEPOS claims in 11 States and the District of Columbia. 1

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. 2 Each claim can have multiple lines of service, each of which
represents a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the
supplier. Lines of service are billed using HCPCS codes, many of which require a modifier
code 3 to indicate such things as left or right limb and functional level.

Local Coverage Determinations and Claim-Processing Edits

According to chapter 13, section 13.1.3, of the Medicare Program Integrity Manual,
Pub. No. 100-08, LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Act. Section 13.1.3 also states: “The LCDs
specify under what clinical circumstances a service is considered to be reasonable and necessary.
They are administrative and educational tools to assist providers in submitting correct claims for
payment. Contractors publish LCDs to provide guidance to the public and medical community
within their jurisdictions.”

On January 1 of each year of our audit period, NHIC published LCD L11464 for lower limb
prostheses. The LCD contained coverage requirements, such as the required functional levels for
certain components, restrictions on the quantities of socket inserts, 4 unallowable combinations of
HCPCS codes, and the DMEPOS suppliers’ documentation requirements.

Additionally, chapter 13, section 13.10, of the Medicare Program Integrity Manual states that
DME MACs should apply the coverage requirements documented in LCDs to claims on either a
prepayment or postpayment basis. NHIC uses claim-processing edits to apply the LCD

1
 Jurisdiction A States are Connecticut, Delaware, Maine, Maryland, Massachusetts, New Hampshire, New Jersey,
New York, Pennsylvania, Rhode Island, and Vermont.
2
  HCPCS is a medical code set used throughout the health care industry as a standardized system for describing and
identifying health care procedures, equipment, and supplies in health care transactions.
3
 A modifier is a two-position code reported with a HCPCS code and is designed to give Medicare and commercial
payers additional information needed to process a claim.
4
 A socket insert is used in the socket of the prosthesis to protect the beneficiary’s limb and to allow for
modifications to the fit of the prosthesis due to fluctuation in the size of the limb.



National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)                   2
requirements for lower limb prostheses on a prepayment basis. Prepayment edits are
programming logic within a claim-processing system that is designed to evaluate claims and
prevent payment for such errors as noncovered, incorrectly coded, or inappropriately billed lines
of service.

CMS issued its March 5, 2012, TDL to all DME MACs in response to OIG’s report issued in
August 2011 (see Appendix A). CMS’s TDL directed DME MACs to work collaboratively to
develop a uniform set of edits based on all of the LCD requirements and to implement these edits
in the local claim-processing system at each DME MAC no later than July 1, 2012.

HOW WE CONDUCTED THIS REVIEW

NHIC paid approximately $327.5 million for 539,295 lines of service (116,631 claims) for lower
limb prostheses from January 1, 2009, through September 30, 2012. We developed
programming logic to analyze these lines of service to determine whether they met LCD
requirements. Our analyses focused on the requirements that could be tested through data
analytics without the need to obtain additional documentation from suppliers. We did not
conduct a medical review to determine whether the services were medically necessary.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data with NHIC.
We determined that these data are sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                              FINDINGS

NHIC paid $450,157 for 651 lines of service for lower limb prostheses from January 1, 2009,
through September 30, 2012, that did not meet LCD requirements, consisting of:

    •   $374,492 for 593 lines of service that had unallowable combinations of components,

    •   $63,583 for 43 lines of service that had missing or incorrect functional level modifiers,

    •   $9,026 for 7 lines of service with unallowable HCPCS codes, and

    •   $3,056 for 8 lines of service with unallowable quantities of test socket inserts.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   3
Chapter 13, section 13.10, of the Medicare Program Integrity Manual states that DME MACs
should apply the coverage requirements documented in LCDs to claims on either a prepayment
or postpayment basis. At the time that NHIC paid the claims for these lines of service, it did not
have claim-processing edits in place to evaluate whether they met all the LCD requirements. In
response to CMS’s March 2012 TDL, NHIC implemented and improved edits to address the
LCD requirements. Of the 651 lines of service we identified that did not meet LCD
requirements, 66 lines of service occurred after the implementation of the new and revised edits.
NHIC did not reprocess previous claims to ensure that they were in accordance with the LCD.

UNALLOWABLE COMBINATIONS OF COMPONENTS

LCD L11464 identifies certain combinations of components that are not allowed on lower limb
prostheses. For example, HCPCS code L5500 is for an initial below-the-knee prosthesis. When
this prosthesis is provided to a beneficiary, certain prosthetic additions, such as HCPCS code
L5629 (below-the-knee acrylic socket), are not allowable. We identified instances in which
NHIC processed and paid for both L5500 and L5629 lines of service. In total, NHIC paid
$374,492 for 593 lines of service that had unallowable combinations of components.

MISSING OR INCORRECT FUNCTIONAL LEVEL MODIFIERS

LCD L11464 states that to receive certain lower limb prostheses, individuals should attain a
certain functional level, and the functional level modifier code must be included on the line of
service. For example, HCPCS code L5930 is for a high-activity knee frame. A beneficiary who
receives this knee frame must be able to attain a functional level of 4, and Medicare claims with
a line of service for L5930 must include the K4 modifier code. We identified instances in which
NHIC processed and paid for L5930 lines of service that did not have a modifier code or that had
a modifier code other than K4 (indicating a lower functional level). In total, NHIC paid $63,583
for 43 lines of service that had a missing or incorrect functional level modifier code.

UNALLOWABLE HEALTHCARE COMMON PROCEDURE CODING SYSTEM
CODES

LCD L11464 states that certain lower limb prostheses are never allowable for Medicare
reimbursement. The LCD states that reimbursement for HCPCS code L5990, a user-adjustable
heel height feature, must be denied as not reasonable and necessary. However, we identified
instances in which NHIC paid for lines of service that had HCPCS code L5990. In total, NHIC
paid $9,026 for 7 lines of service with the unallowable HCPCS code L5990.

UNALLOWABLE QUANTITIES OF TEST SOCKET INSERTS

LCD L11464 states that no more than two test socket inserts are allowed for an individual lower
limb prosthesis. NHIC processed and paid for more than two test socket inserts for individual
prosthetics, totaling $3,056 for eight lines of service.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   4
                                      RECOMMENDATIONS

We recommend that NHIC:

    •   recover $450,157 in identified overpayments for lines of service for lower limb
        prostheses that did not meet LCD requirements and

    •   monitor the edits it developed and updated in response to CMS’s March 2012 TDL to
        ensure that the edits are functioning correctly.

AUDITEE COMMENTS

In written comments on our draft report, NHIC concurred with both of our recommendations and
described corrective actions that it had taken or planned to take. Specifically, NHIC stated that it
would initiate recovery of the overpayments that we identified within limits as specified in CMS
program guidance and application regulations. NHIC added that it had ongoing edit monitoring,
including the monitoring of an ongoing widespread prepayment complex review for lower limb
prostheses HCPCS codes billed with a K3 functional level modifier.

NHIC’s comments are included in their entirety as Appendix C.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   5
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                       Report Number         Date Issued
                          Report Title
Questionable Billing by Suppliers of Lower Limb Prostheses             OEI-02-10-00170          8/2011

Lower Limb Prosthetics Claims Paid to Premier Prosthetics and           A-07-12-05026          12/2012
Orthotics Were Not Always Supported by Adequate
Documentation

Lower Limb Prosthetics Claims Paid to Ozark Prosthetics and             A-07-12-05029           4/2013
Orthotics Were Not Always Supported by Adequate
Documentation




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)       6
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

NHIC paid $327,515,019 for 539,295 lines of service (116,631 claims) for lower limb prostheses
for the period January 1, 2009, through September 30, 2012. Our review focused on whether
NHIC met Medicare requirements by paying only those lines of service for lower limb
prosthetics that were in accordance with its LCD on lower limb prostheses. We did not conduct
a medical review to determine whether the services were medically necessary. We limited our
review of internal controls to those related to our audit objective.

We conducted our audit work, which included contacting NHIC in Hingham, Massachusetts,
from January through March 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and DME MAC guidance;

    •   interviewed staff at NHIC to gain an understanding of its procedures for the processing
        and payment of DMEPOS claims for lower limb prostheses;

    •   used CMS’s National Claims History file to identify all DMEPOS claims processed and
        paid by NHIC during the period January 1, 2009, through September 30, 2012;

    •   developed programming logic to analyze the lines of service, focusing on the LCD
        requirements that could be tested through data analytics without the need to obtain
        additional documentation from suppliers; and

    •   discussed the results of our review and provided detailed data on our findings to NHIC
        officials on May 8, 2013.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data with NHIC.
We determined that these data are sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)   7
                                                      APPENDIX C: AUDITEE COMMENTS




                                                                                                                                                    Durable Medical Equipment
                                                                                                                                             Medicare Administrative Contractor
                                                                                                                                                         Phone: (781) 741-3029




           July 22, 201 3


           Department of Health & Human Services
           Office of Inspector General
           Office of Audit Services, Region VI I
           601 E 12'h St, Room 0429
           Kansas City, MO 64 106

           Attention:                         Patrick J. Cogley
                                              Regional Inspector General for Audit Services

           Subject: OIG Draft Audit Report A-07-13-05040 "Durable Medical Equipment Claims Paid by
           National Heritage Insurance Company, LLC, Did Not Always Meet the Requirements of the
           Local Coverage Dctennination for Lower Limb Prostheses"

           Dear Mr. Cogley:

           NHIC appreciates the opportunity to work with the Office of Inspector General on this important
           issue fac ing NHIC in our oversight ofDME MAC Juridiction A. Please find on the following
           page our response to the recommendations in the draft audit report cited above. If you have any
           questions about NHIC's response, please contact Jennifer Otten, Manager of Audit & Controls,
           in Chico, California at 530-332-11 69 (or at $.rJnife r.otten@hp.com).

            Sincerely,



           UJ~-
           NHIC DME MAC A Program Director

           cc:             Jennifer Otten, NHIC, Corp.
                           Karen Grasso, NHIC, Corp.
                           Ed Knapp, RN, NHIC, Corp.
                           Paul Hughes, MD, NHIC, Corp.
                           Debbie Bach, RN, NHIC, Corp.




                                                                                                NHIC, Co.,p.
                                                                                                  www medicarenhic.com
                                                                                                   75 Sgt. William B. Terry Drive
                                                                                                 Hingham , MA 02043
                                                                                                A CMS CONTRACTOR
               I Al     OPO              ')    ~'


            The cont1olled ~of !filS doCument mides oo the NHIC Qvality Pat tal (SilarePomt). Any otherversoo orcopy eilhertWclromt or p.ipef, is Uf!COtllroled Slid muSI be d9sfroyid wtl811 rt has satV8d its (MJrpose.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)                                                                                                                          8
            OIG Draft A-07-13-05040-NHIC JA Response


            NIDC's response to each of the OIG Recommendations:

            I . Recommendation
                Recover $450,157 in identified overpayments for lines ofservice for lower limb prostheses
                that did not meet LCD requirements

               NHIC Response
               NI-IIC concurs with this recommendation and will initiate recovery of the payments specified
               above within limits as specified in CMS program guidance and application regulations.


            2. Recommendation
               Monitor the edits it developed and updated in response to CMS 's March 2012 TDL to ensure
               that the edits are fUnctioning correctly.

               NHIC Response
               NHIC concurs with this recommendation and has ongpoing edit monitoring, including the
               monitoring of an ongoing widespread prepayment complex review for Lower Limb
               Prostheses HCPCS codes billed with a K3 functional level modifier.




National Heritage Insurance Company Paid Unallowable Lower Limb Prosthetics Claims (A-07-13-05040)            9
